OIG Audit Report GR-30-99-011
Use of Equitable Sharing Revenues Wicomico County Narcotics Task Force
Wicomico County, Maryland
Audit Report GR-30-99-011
September 30, 1999
Office of the Inspector General

Executive Summary
The Office of the Inspector General (OIG), Audit Division has completed an audit of the Use of Equitable Sharing Revenues received by Wicomico County Narcotics Task Force (WINTF), Wicomico County, Maryland.  The audited equitable sharing revenues represent a share of the proceeds from the forfeiture of assets seized in connection with joint federal and local criminal investigations.  The funds are to be used to enhance law enforcement resources.

	We performed the audit in accordance with generally accepted government auditing standards and, accordingly, included such tests of the records and procedures as we considered necessary.  We audited the equitable sharing revenues, interest earned, and expenditures for the period of December 23, 1997, when the equitable sharing revenue account was established under the control of the Wicomico County Director of Finance, through June 30, 1999.

Generally, equitable sharing revenues and expenditures were accounted for separately and accurately in Wicomico County financial records. 

	At the conclusion of our audit we requested that representatives of WINTF and the City of Salisbury attend an exit conference.  We conducted the exit conference with the Sheriff of Wicomico County, Chairman of WINTF, and informed him of the results of our review.  We provided details of our audit methodology and discussed preliminary findings.